<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF THE INTERIOR FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-508]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-508

THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF THE INTERIOR 
                          FOR FISCAL YEAR 2019

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2018

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-769 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Public Lands & Natural Resources 
                            Policy Director
                Michelle Lane, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
          Camille Touton, Democratic Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                                WITNESS

Zinke, Hon. Ryan, Secretary of the Interior......................     5

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Indian Education Association:
    Letter for the Record........................................   110
Zinke, Hon. Ryan:
    Opening Statement............................................     5
    Written Testimony............................................     8
    Chart titled ``DOI Bureaus--Current Region Boundaries,'' by 
      the USGS dated February 20, 2018...........................    34
    Chart titled ``13 Unified Regions--Watersheds, States, and 
      Counties with Land Cover--Map 5,'' by the USGS dated 
      February 20, 2018..........................................    36
    Responses to Questions for the Record........................    57

 
THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF THE INTERIOR 
                          FOR FISCAL YEAR 2019

                              ----------                              


                        TUESDAY, MARCH 13, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are here today to consider the President's budget 
request for the Department of the Interior for FY'19. This is 
the first of three budget hearings that we intend to hold this 
year, so we will be looking forward to hearing from both the 
Department of Energy and the U.S. Forest Service in the weeks 
ahead.
    Secretary Zinke, welcome back before the Committee, I 
appreciate you being here this morning with your team. You and 
I have worked closely to chart a path to greater energy 
security which, as you have noted, runs right through the State 
of Alaska. I would like to thank you for all that you have done 
to help Alaska and the nation this past year.
    You made one of your first trips as Secretary up North. And 
I also thank you for just recently sending Deputy Secretary 
Bernhardt and Assistant Secretary Balash to the state last 
week. They were there to engage local communities and 
stakeholders as the Department of the Interior lays out its 
framework for responsible exploration and development in the 
1002 Area, so thank you for sending them up.
    The President's budget request aims to build on the 
momentum created over the past year. The Department has 
requested a total of $11.7 billion in discretionary 
appropriations for Fiscal Year 2019. Overall, that is a 
reduction of more than $1 billion from the current level, but 
in line with the Administration's efforts to shift more funding 
to defense needs.
    While I do not agree with everything in this request, I 
think it is fair to say it is a lot better than we have seen in 
recent years and I thank you for that. It focuses on taking 
care of the lands the Federal Government already owns rather 
than continuing to buy more, and it will help us increase 
responsible production of our abundant natural resources, a 
goal that we both share.
    One highlight in that effort is the Department's new draft 
five-year plan for offshore leasing, which put almost all of 
the areas on the table, at least from the start. I always 
emphasize that that was a starting point. Like a lot of members 
of this Committee, I support a new plan that provides greater 
access, while protecting the areas where development may 
perhaps not be right at this time.
    This request also reinforces our efforts to improve our 
nation's mineral security. Both the President and you, 
Secretary Zinke, have recognized that this is a critical issue. 
We need to continue to address our mineral security this year 
through both continued administrative actions and complementary 
legislation. Within this request, I support the funding 
proposed for modern geologic mapping, which will greatly 
contribute to this effort.
    During your confirmation hearing, Mr. Secretary, you made a 
commitment to work on the backlog of deferred maintenance in 
our national parks. This request reflects that commitment with 
a legislative proposal to create a new public lands 
infrastructure fund, which was recently introduced by Senator 
Alexander. Of course, we are still examining the proposals and 
the details of that bill. Senator Portman has long been a lead 
on many of our parks issues and also has a bill which we 
anticipate that we will be looking at in the weeks ahead. But, 
Mr. Secretary, I do appreciate your effort in reducing that 
backlog priority and working with not only the members of this 
Committee, Senator Portman and Senator Alexander, but others on 
this.
    One thing that we can all agree on is that the Federal 
Government needs to be a good neighbor to those with federal 
lands in their states. And on that front, the Administration's 
proposal to extend and increase the Payment in Lieu of Taxes 
(PILT) program, I think is a good sign. With regard to our 
territories, I was pleased that we were able to authorize the 
2010 agreement to continue financial assistance to Palau as 
part of last year's Defense Authorization bill. I would like to 
fully fund that agreement in the near future and finally meet 
our obligations to our allies in Palau.
    Finally, I would like to take a moment to note some 
interesting data that the Partnership for Public Service 
recently sent our way. According to their survey, the 
Department of the Interior improved on all 10 workplace 
categories in 2017, from ``effective leadership'' and 
``empowerment'' and ``fairness'' to ``strategic management'' 
and ``support for diversity.'' I think we know that the 
Department has not always fared well in these types of surveys, 
but last year showed some bona fide improvements, so I 
appreciate your continued work to improve its culture and 
performance. I think we are seeing that prove out.
    Again, Mr. Secretary, I thank you for being here this 
morning, and I thank you for your leadership. We will all have 
an opportunity for questions after hearing your statement, but 
thank you for appearing before the Committee.
    With that, Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair.
    Over the past year, the Trump Administration has overseen 
an attack on our public lands and on our nation's strong 
conservation ethic that, I believe, is unprecedented. This 
budget and Secretary Zinke's actions, I think, represent an 
abandonment of the Secretary's stewardship responsibility of 
our public resource.
    In 1903, the Supreme Court described the Secretary of the 
Interior as, ``the people's guardian over our public lands.'' 
Secretary Zinke assured us during his confirmation hearing that 
he would manage the Interior Department like a Teddy Roosevelt 
conservationist. I believe his actions and public policies have 
been the exact opposite.
    In the past year, President Trump and Secretary Zinke have 
abandoned the responsibility of stewardship of our public lands 
and undermined the public trust by removing over two million 
acres of the Bears Ears National Monument and Grand Staircase 
in Utah. It has proposed opening up drilling on the Outer 
Continental Shelf waters to oil and gas leasing in places that 
the United States has previously turned down. It is suggesting 
allowing trophy hunters to import tusks and other elephant body 
parts.
    Many of these actions are not popular with the public and 
are being challenged in court. I believe these actions will 
ultimately be overturned as unlawful exercises of Presidential 
or Secretarial power. They also show that Secretary Zinke and 
the Trump Administration have abandoned any pretense of a 
balanced approach to managing federal lands, instead favoring 
industry over conservation and the taxpayer. The President's 
budget proposal for 2019, again, abdicates responsibility for 
stewardship of our natural resources and public good. The 
budget guts key conservation programs and favors energy 
development at any cost.
    At a time when the visitation to our national parks is at 
record levels, the budget proposes cutting management and 
programs at our national parks instead of maximizing the 
opportunities for our citizens and for the public. These 
funding and staffing cuts are made worse by the Secretary's 
ill-conceived proposal to raise park entrance fees to $70 at 
some of our nation's most popular national parks, including 
Mount Rainier National Park and Olympic National Park in my 
state. This is an almost 300 percent increase. How does that 
make sense?
    The two national parks in my state together have more than 
4.8 million visitors a year. Your proposal would increase the 
park entrance fee and cost visitors to these parks an 
additional $215 million a year. The impact on these parks 
impact the livelihood of businesses and communities throughout 
my state.
    Secretary Zinke, while my constituents are hearing about 
private jet rides and expensive doors, they want to understand 
why someone is proposing to raise park fees at this level. I 
have heard from many Washingtonians, and they are concerned 
that they won't be able to afford going to the national park 
and feel that these fees are absurd. These increases imposed on 
American's public lands are also in sharp contrast to the 
millions of dollars of royalty reductions that the Secretary is 
proposing for oil and gas and coal companies.
    The staffing and budget cuts at our national parks also, 
combined with similar budget cuts at virtually all non-energy 
programs within the Interior, show the Administration's failure 
to recognize the importance of the outdoor recreation economy. 
Further proof of the Administration's efforts is that almost 
all appropriated funds for the Land and Water Conservation Fund 
are cut, one of the most successful programs. In fact, the 
budget goes further by proposing to rescind previously 
appropriated Land and Water Conservation Fund (LWCF) funds.
    It also dramatically cuts funding to programs for the 
management of water in the West. And I can tell you this 
Committee has dealt effectively with this issue, but a lot more 
needs to be done. We can't have programs like conservation 
programs, drought resiliency programs and programs to help fund 
rural and tribal communities cut leaving farmers, fishermen, 
tribes, and communities high and dry.
    Secretary Zinke's proposal for offshore leasing is also 
unprecedented, in my opinion. It allows for offshore oil and 
gas drilling in over 90 percent of the coastal waters, 
including off the coast of Washington and Oregon. These are 
things that have been considered in the past and shelved.
    Dramatic increases in offshore oil and gas development in 
our area propose a direct threat to a robust coastal ocean 
economy. The fishing communities and the recreation communities 
in my state are opposed to this idea.
    Secretary Zinke is also playing a political game in 
choosing where to site drilling activities. The Secretary's 
decision on a last-minute exemption for Florida while ignoring 
opposition from at least 10 other states, I think, has made 
this process seem very arbitrary and capricious to taxpayers.
    On top of that, obviously, there are other safeguards and 
regulations that are proposed to be rolled back. The 
President's budget would also gut oil spill and environmental 
research. This is very important as there are important 
questions that we don't have answered on oil.
    And let me talk for one minute about methane. The Senate 
and House have upheld important legislation to make sure we 
have commonsense regulations relating to oil and gas leasing 
and not unnecessarily flare methane gas. Fortunately, the 
courts have continued to say that we need to hold this up, 
making sure that the Administration takes action, but the 
Administration continues to block the implementation of these 
important rules.
    Last year the Senate spoke on this and defeated an effort 
to roll back the methane rule using the Congressional Review 
Act. Senators recognized that wasting $330 million of the 
public's natural resources every year is a bad idea, and yet 
those ideas continue to try to move forward in various ways.
    I am, Madam Chair, disappointed at this budget proposal and 
the actions of this Administration as it relates to these 
important issues.
    Yes, I could talk a lot about private planes, helicopters, 
and doors, but there are also very important public policy 
issues here that I hope to focus on and get answers for my 
constituents.
    Thank you.
    The Chairman. Thank you, Senator Collins.
    Collins? Cantwell. Yes, I need a little coffee here this 
morning.
    [Laughter.]
    It is that daylight savings time. We are going to have to 
do something about that.
    Secretary Zinke, welcome back before the Committee. We 
welcome your opportunity to speak to the FY2019 budget request 
for the Department of the Interior.
    Please proceed.

                 STATEMENT OF HON. RYAN ZINKE, 
                   SECRETARY OF THE INTERIOR

    Secretary Zinke. Thank you, Madam Chairman, Ranking Member, 
and Committee members for the opportunity to offer my support 
for the President's 2019 budget request for the Department of 
the Interior.
    With your permission, I'd like to submit my entire written 
statement for the record.
    The Chairman. It will be included as part of the record.
    Secretary Zinke. The President has made it very clear about 
his priorities. He has spent the first year in office keeping 
the promises he has made to the American people, and there are 
many promises, and there are many promises kept.
    This budget is a major step toward keeping another one of 
the President's promises, rebuilding our infrastructure. The 
President is a builder and the son of a plumber, as I am. I 
look forward to working with the President on restoring 
America's greatness through a historic investment of our public 
lands infrastructure. This is the largest investment in our 
public lands infrastructure in our nation's history. Let me 
repeat that. This is the largest investment in our public lands 
infrastructure in the history of this country.
    Our public lands are our greatest treasures, but they have 
suffered serious neglect from our nation's leaders over the 
years from both sides. Our Interior deferred maintenance 
backlog is $16 billion. $11.6 billion of it can be found in our 
National Park Service alone. This includes everything from our 
roads, bridges, tunnels, visitor centers and restrooms.
    At the Grand Canyon National Park, as an example, visitors 
receive water from an obsolete pipeline that has broken more 
than 80 times since 2010. It has forced emergency rationing, 
costing millions of dollars to fix over and over again.
    The President's budget proposal requires legislation for a 
new Public Lands Infrastructure Fund to address the deferred 
maintenance problem--this is a legislative priority. The fund 
would provide up to $18 billion over 10 years for maintenance 
and improvements in our national parks, our national wildlife 
refuges and Bureau of Indian Education funds. Similar to the 
Land and Water Conservation Fund, it would be funded from 
energy revenues--all energy, not just oil and gas, all energy 
from public lands.
    The budget also includes $1.3 billion for construction and 
repairs. Infrastructure is not merely an expense, it is an 
investment. Improved infrastructure is an economic driver. Our 
public lands should be for the benefit and enjoyment of the 
people, as the Roosevelt Arch in Yellowstone National Park so 
proudly proclaims.
    In 2016, 330 million visitors went through our park system, 
half a billion through Interior lands. It's estimated that 
those visitors spent $18.4 billion in our parks alone and, 
overall, recreation is $887 billion in consumer spending and 
employs 7.6 million people.
    All Americans should have the opportunity to enjoy a 
national park, but without an investment in our infrastructure 
to go along with a record-setting amount of visitors, we are 
loving our parks to death.
    I was pleased to join Senators Alexander, King, Daines, 
Heinrich, Gardner, Tillis, and Manchin this week in introducing 
the National Parks Restoration Act which follows a blueprint 
set in the Department's budget. It is bipartisan.
    Along with being the chief steward of our public lands, I'm 
also responsible for the education of 48,000 American Indian 
students that deserve a world-class education. The Public Lands 
Infrastructure Fund supports 150 Bureau of Indian Education 
schools in 23 states. The school maintenance backlog stands at 
about $634 billion.
    Also across Indian country, the opioid epidemic is a major 
problem, along with drugs. With the President's leadership 
we're cracking down on drug dealers who are selling out to our 
kids. This budget proposal invests in joint federal efforts, 
like an opioid taskforce, that we've already conducted.
    We are also seeing a great opportunity to reorganize the 
Department of the Interior for the next 100 years, just as 
Teddy Roosevelt did a century ago. As a retired Navy Seal 
commander, I believe in giving more authority at the front 
lines where it should reside so the decisions can be made at 
the local level rather than in Washington, DC. Clearly, the 
one-size-fits-all model has been ineffective.
    This budget includes $18 million to begin shifting 
resources to the front line in the field to establish unified 
regional boundaries for Interior bureaus. This organization 
will enable us to achieve our core mission of stewardship.
    In planning this organization I've taken into account 
feedback from Congress, governors, Interior employees, and the 
stakeholders. It's a reorganization based on science. 
Watersheds, wildlife corridors, we brought in our SES 
professionals to look at it, adjust the boundaries to make sure 
they're practical and I've met with the governors. Like 
Roosevelt a century ago, we want to achieve the greatest good 
for the greatest term using best science and best practices.
    This budget also recognizes that American strength relies 
on American energy. Under President Trump we are pursuing an 
American energy dominance policy. Last year was much about 
energy. This year is a pivot about conservation, 
infrastructure, and reorganization.
    The President has delivered on his promise of energy. This 
budget includes $43 million for American energy development to 
continue our mission. Presently, we stand at 10.6 million 
barrels a year in this country. For the first time in 60 years, 
we're exporting liquid natural gas.
    All told, our budget request for Fiscal Year 2019 is $11.7 
billion with a proposed transfer, the Department of Defense for 
Palau Compact, that raises it to $11.8 billion.
    This budget clearly lays out top priorities of the 
Administration and speaks to the priorities of the American 
people, rebuilding our infrastructure, fixing our schools, 
achieving energy dominance, and holding the line for fiscal 
responsibility. Above all, we do it in a responsible manner, 
understanding that we are the steward of our greatest 
treasures.
    With that, I'm happy to take your questions.
    [The prepared statement of Secretary Zinke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Secretary.
    Again, I will repeat my thanks for your focus on the energy 
side of the business that you and the President clearly 
addressed last year. We have, I think, a great deal to do to 
fulfill what was begun, but we have made considerable progress 
and I look forward to even more of that.
    I am going to keep my questions this morning relatively 
parochial to Alaska, as I know members will have questions 
about the parks' backlog and the reorganization and I will go 
broader into that in the second round.
    Let me first begin, Mr. Secretary, with the Eastern 
Interior Resource Management Plan. As you know, this came down 
in the last few days of the Obama Administration. One of those 
plans, in particular--this is the Fortymile District--turned a 
management regime that had worked for decades, just literally 
turned it on its head.
    In addition, we have our placer gold miners in the 
Fortymile District that have had some real trouble working out 
standards for revegetation, and this has really been quite 
problematic. The question for you this morning is whether or 
not we have any administrative options to address some of the 
very valid concerns that exist with regards to this Fortymile 
plan, if you are willing to work with us to help restore 
balance to that plan, and then specific to the revegetation 
standards, if we can find a solution to help our miners out in 
that area?
    Secretary Zinke. Well, thank you for that question.
    And restoring trust and being a good partner is what 
Interior should be. A government should not be an adversary. 
And that's been clear across the states, that in some policies 
have been not willing to be developed where you listen to the 
local populations.
    I did have the Deputy Secretary and our senior leadership 
team up there talking to the Fortymile miners. There are some 
administrative procedures we can do. We're looking at 
streamlining it.
    Reclamation and mining, as a geologist, the fair 
proposition is that if you're going to develop on federal land, 
there needs to be a reclamation plan to make sure it's returned 
to as good or better condition than what you found it. There 
are a number of advanced technologies in reclamation that we 
need to incorporate into our regulatory framework to ensure 
that happens. Oftentimes, our regulations do not take into 
account innovation. They don't take into account science or 
best practices. So when our regulatory framework becomes 
punitive on an industry and the local population views it as 
targeting, then there's a breach of trust. So we are aware of 
it and we look forward to working with you and the good folks 
up there to make sure we have a path forward.
    The Chairman. Well, I thank you for the willingness to work 
with us.
    Again, these are, some of them are the smallest of the 
small gold miners that are operating out there and, again, in 
an area and in a manner that is certainly sensitive to the 
environment. They have been able to make it work well for 
decades. We want to be able to return it to that. But we need 
some working with the Administration on this.
    Another effort in rural Alaska is the Ambler Road which 
would help to facilitate not only minerals but jobs in the 
region, and there is an issue that is coming up right now with 
regards to permits and approval for Ambler Road. One issue is 
whether or not the Park Service can complete its ANILCA 
assessment prior to the completion of the NEPA and the EIS that 
comes within it. It has been one of these situations where we 
just cannot seem to get all of the agencies on the same page. 
All I am asking for this morning is your commitment to work 
with the Army Corps on this issue so that we can make sure 
that, basically, our federal agencies are working together, 
instead of a little bit here and a little bit there. It needs 
to be more coordinated, and your assistance on this would be 
appreciated.
    Secretary Zinke. Thank you and I agree with you.
    Part of the frustration has been multiple agencies involved 
in the same project with different objectives, different 
locations, independently producing multiple biological opinions 
which results in delay, arbitrary results.
    Part of the reorganization at Interior is to address just 
that, making sure the arms of the government work together to 
produce the best possible outcome based on science, based on 
best practices, longest good, greatest term. So we are working, 
and I'm happy to report that we're going to have a decision on 
it shortly. We have the lead, and we're working with the Army 
Corps of Engineers.
    The President also has tasked us to look heavily at the 
Army Corps of Engineers to see if we can't look at streamlining 
the process with the Army Corps of Engineers which affects a 
lot of our projects. They're really good people, but the--some 
of it, the way that the system is set up, doesn't allow them to 
move forward and this is an example.
    The Chairman. Well, it is an example and I appreciate the 
focus from within the Department on permitting and some of the 
regulatory overlap that we just get snarled up with. The effort 
that has been made to move forward on a permitting perspective 
has been appreciated. We just need more in that area.
    Senator Cantwell.
    Senator Cantwell. Thank you.
    Mr. Secretary, you are asking working Americans to pay 
higher fees on entering national parks. Is that correct?
    Secretary Zinke. Our proposal looked at multiple options on 
our parks. One of them was to look at our top 10 parks or so 
and look at during peak season. And our proposal also looks at 
our pass.
    I've spent a lot of time in a kiosk. And it's amazing in 
our parks which the maintenance, as you know, is we're far 
behind. But when you give discounted or free passes to elderly, 
fourth graders, veterans, disabled and you do it by the 
carload, there's not a whole lot of people that actually pay at 
our front door, as well as you have a lot of foreign guests, a 
lot of population of them.
    So we're looking at ways to make sure that we have more 
revenue in the front door on our parks themselves because when 
you have a park like Rainier, is that the money they receive 
coming in the front gate, I want to make sure more of it goes 
to that Park Superintendent so he has flexibility in how he 
spends it. Right now, much of it comes back to Washington, DC, 
and the superintendents don't have enough flexibility, in my 
opinion, to spend the money.
    Park fees does not and will not ever address $11.7 billion. 
It just won't. But a lot of our parks have record visitation, 
certainly last year. We expect them to have record visitation 
again, and we're looking at the proposal of many different 
options. One of them is during peak season raising the rate. We 
have not yet concluded and likely we're going to look at it to 
make sure that there's not any unintended consequences.
    Senator Cantwell. So am I understanding from your statement 
that you think we should raise them on veterans and fourth 
graders?
    Secretary Zinke. No, what I'm saying is this, is that we 
subsidize and we allow, by design, a lot of people to go 
through. If you're in a car and you have a veteran in the car, 
everyone, whether they're a veteran or not, is free in that 
car, same thing with the disabled, same thing with the elderly 
on passes. Basically, one person with a pass, everyone in that 
car comes in for free.
    Now whether or not that's correct, we're looking at it, but 
what clearly is the case is we have an $11.7 billion backlog. 
The greatest bargain in America is the $80 a year pass. I just 
took my kids to the theater and after going and paying the 
ticket at the theater and having popcorn, it's more than $80. 
And this is a pass all year around.
    So we're looking at ways to make sure that revenue coming 
in the door of our principal parks is appropriate, making sure 
we still have value because American parks belong to the 
public. They belong to all Americans and everyone should have 
access.
    Senator Cantwell. Well, we definitely think we should be 
increasing access, not disincentivizing it.
    I want to ask you about this issue regarding the agency 
spending money on things that may not be in the public's 
interest. You took a private jet home from Las Vegas. Do you 
think that was a mistake?
    Secretary Zinke. Well first, insults, innuendos are 
misleading. I never took a private jet anywhere.
    The previous Secretary took 80 trips of just under $1 
million. I took three trips. One of them was with the Senator, 
your Chair, on a prop plane. A second one was with the Governor 
of the Virgin Islands and the Prime Minister, again, a prop jet 
in between islands to make sure that we were on time. And the 
third was to take a King Aire, late at night after traveling 
all the way across Nevada, giving a PILT speech, to meet an 
eight o'clock in the morning meeting with a Governor of Montana 
for the Governor's conference.
    So I resent the fact of your insults. I resent the fact 
they're misleading. I resent the fact of doors. And I'll go 
through line by line.
    And you know what also is, that Sally Jewel, I think she 
was right. I think her travel patterns, even though she took a 
private, chartered airplane, was met by helicopter, did a hike. 
I think she was right because as Interior, she was out hiking 
and doing what she was supposed to be doing.
    So given that a flight from the North Slope down to 
Anchorage, with the Chair, to allege it's a private jet is 
inappropriate, ma'am.
    Senator Cantwell. Well, Mr. Secretary, I have given you 
ample time and I simply asked you a question about the private 
jet trip to Vegas. I guess we will ask you in writing and maybe 
we will get an answer.
    The IG is looking at this issue, and we are looking at the 
larger issue of how time and money is spent. And the reason why 
we are is because our citizens want to know why their park fees 
are going up and they are reading these stories. I think the IG 
said that the agency made a mistake when it was trying to use 
wildfire preparedness money to take helicopter tours in Nevada 
when that wasn't the purpose. What we want is to see the 
answers and transparency within the agency, so we will ask you 
again for the written record and, hopefully, we will get a more 
succinct answer.
    Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Thank you so much, Mr. Secretary, for being here. It is 
great to see you again.
    I appreciate your testimony and acknowledgement that there 
are many issues facing the Department that are requiring 
immediate attention. Last year during the hearing we spoke 
about the several-billion-dollar problems facing the 
Department: wild horse and burrow management, deferred 
maintenance backlog, and over the last several months the 
Department has offered a series of proposals for raising 
additional revenue.
    I just want to ask if you could talk a little bit about how 
you envision these programs would work together to deliver 
funds on the ground.
    Secretary Zinke. We face a number of challenges in 
Interior. One of them is we have multiple bureaus with 
different regions. We have, the regions are not based on equal 
systems, watersheds, so structurally, as it is very difficult 
for an old Department, like Interior, to work together.
    I give the example of a fish and trout in the same stream. 
Upstream we have a dam, downstream we have irrigation, and that 
stream goes by a Forest Service holding. The salmon are managed 
by bureau, or by Commerce, through NMFS. The fish are a Fish 
and Wildlife by me. Upstream watersheds or temperatures are 
generally Army Corps of Engineers. Downstream irrigation is 
Bureau of Reclamation. A Forest Service holding, surface 
Department of Ag, subsurface is BLM. Same stream. Same issue. 
You can have multiple biological opinions produced 
independently with different results, some of them non-
reconcilable. So I think we should look at making things like 
recreation, permitting, and NEPA to do it jointly, to rearrange 
our regions to be unified based on watersheds and science. That 
will be enormously helpful. Recreation--our trail systems 
should connect. Our NEPA system--we should be on the same page 
in the original scope at the end. And permitting, NEPA and 
permitting need to be separate because there's a conflict of 
interest, but permitting also should be joint. All 
stakeholders, including the states, should be there in the 
beginning.
    The Department of Defense went through a Reorganization Act 
in 1983, as you know. We fight forest fires this way, jointly, 
but when we manage our lands, we're not in a joint scenario 
which, I think, is the--will be the biggest help in eliminating 
some of the bureaucracy.
    Senator Barrasso. Thank you very much, Mr. Secretary.
    On January 26th of this year the BLM issued a draft 
Environmental Impact Statement for the Converse County Oil and 
Gas Project. It is a project for Wyoming. The BLM estimates 
that this project is going to bring 8,000 jobs and as much as 
$28 billion in economic activity to the state.
    I have concerns that the BLM's draft Environmental Impact 
Statement (EIS) needs to be revised to maximize the success of 
the project. Specifically, the draft EIS does not include clear 
guidance for year-round drilling and it does not fully 
acknowledge the ongoing work by the State of Wyoming, 
specifically, to implement our guidance on the greater sage-
grouse core area of protection. The timely correction of these 
errors and completion of the environmental review for this 
project is critical to the state's economy and our nation's 
energy security.
    So I ask you, Mr. Secretary, if you will work to ensure 
that the BLM will complete the final EIS in a timely manner and 
issue a record of decision that is consistent with the 
Administration's commitment to achieving energy dominance?
    Secretary Zinke. We certainly will commit to working with 
you and making sure the EIS is fair and make sure it takes into 
consideration the stewardship responsibilities as well as the 
President's energy dominance policy.
    As you know, Secretary of the Interior, it's really two 
sides. Even Roosevelt said that conservation is as much 
development as it is protection. And as Interior, I have 
responsibilities on both sides. So I am not oil and gas 
centric. I'm American energy centric. And there are places 
where drilling for oil is absolutely appropriate and there are 
places that are not. And so that's why we have NEPA. That's why 
the process of NEPA has been the backbone of what, I think, is 
strong and appropriate policy in this country.
    Weighing into it, we'll--our commitment is to get the EIS 
out, make sure it's done fairly, make sure it's done based on 
science and then from there, we'll make the best determination 
we can.
    Senator Barrasso. Well, thanks.
    Finally, Mr. Secretary, last year when you testified before 
the Committee on the Department's budget, I asked you to take 
steps to ensure that the BLM field offices, like the one in 
Casper, have sufficient resources to process the new oil and 
gas permit applications and to clear the sizable backlog.
    I am encouraged by the progress that the Department has 
made on the issue. I am also encouraged by the attention that 
both you and Deputy Secretary Bernhardt have paid to input from 
our stakeholders in Wyoming on this and on a variety of other 
issues from sage-grouse to cooperation among the agencies that 
you oversee. I look forward to continuing to work with you and 
your staff to resolve the lingering concerns with the 
Department's proposed action for the Moose-Wilson Road in the 
Grand Teton National Park, and I urge you to continue to listen 
to stakeholders across the West as we move forward with your 
ambitious proposals to reorganize the Department.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    Mr. Secretary, during your confirmation hearing you 
mentioned Teddy Roosevelt nine times. Oregonians have a strong 
appreciation for Teddy Roosevelt as a conservationist and as a 
President. With his signature he created the Crater Lake 
National Park and it is the deepest lake in the United States, 
known for its beautiful blue water. Teddy Roosevelt understood 
that when you sell off or exploit your public lands, you don't 
get them back. Mr. Secretary, that is something you don't seem 
to understand at all.
    First, you pushed the largest reduction of conserved, 
treasured public lands in American history, two million acres 
sacrificed for private exploitation.
    Second, you proposed opening America's precious coast to 
offshore oil drilling, only to walk it back in one state where 
it seemed there was a potential Republican Senate candidate who 
opposed it. I can tell you in our state, Oregonians don't want 
to look out over Haystack Rock and see oil derricks.
    Third, during the most expensive wildfire season in 
recorded history, you played a shell game with a wildfire 
account at Interior to pay for an unrelated helicopter ride, 
and this is another matter that the Inspector General is 
looking at.
    My first question, Mr. Secretary, is: would Teddy Roosevelt 
be sitting where you are today, advocating the virtual 
elimination of the Land and Water Conservation Fund?
    Secretary Zinke. Mr. Senator, I challenge you to give me 
one square inch----
    Senator Wyden. I would like a response to the question, Mr. 
Secretary. Time is short.
    Secretary Zinke. It is short and I challenge you to give me 
one square inch of land that has been removed from federal 
protection. One square inch.
    In the case of Bears Ears, as you stated, Bears Ears, after 
I restored 400,000 acres of wilderness, after I restored almost 
an entire national forest, the boundary of the revised Bears 
Ears is still larger than Zion and Bryce Canyon combined.
    What I did do is increase public access and traditional 
rights. Under the Trump Administration at Interior, we've 
actually increased wilderness last year, specifically in New 
Mexico. And I worked with the delegation in Utah because Utah, 
where Bears Ears and Staircase is, the entire Congressional 
delegation, including your colleagues and the Governor, wanted 
it rescinded. I didn't rescind it, so we revised the 
boundaries.
    Senator Wyden. Mr. Secretary, you've used up now almost 
half my time.
    Could you give me a reason or explanation for whether Teddy 
Roosevelt, sitting where you are, would advocate a budget that 
virtually eliminates the Land and Water Conservation Fund?
    Secretary Zinke. I believe that the Land and Water 
Conservation makes $122 million available. It does not add more 
property into the federal estate, but our budget also has the 
largest investment in the history of this country on three 
critical areas. One is maintenance backlog of our park system; 
two, maintenance backlog of our wildlife refuge system which 
Teddy Roosevelt initiated; and thirdly, making sure that we 
meet the treaty obligations of 48,000 American Native kids. 
That's the largest investment in the history of this country. 
So I believe Teddy Roosevelt would be proud of the focus on 
preserving, protecting and maintaining our treasures.
    Senator Wyden. What I asked you, though, because it is in 
your budget, is whether he would support something that is so 
fundamental to what you said in your prepared statement, which 
is 
increasing access to public lands. I am quite certain that 
Teddy Roosevelt would not be here defending the virtual 
elimination of the Land and Water Conservation Fund.
    I want to close on a personal note. Mr. Secretary, you and 
I talked a lot before your confirmation. I felt, in an attempt 
to build a bridge to work with you, particularly in a state 
where the Federal Government owns most of the land, I would 
support your nomination. And I did. I voted for your 
nomination. I will tell you right now, as of today, it is one 
of the biggest regrets of my time in public service.
    Thank you, Madam Chair.
    The Chairman. Senator Portman.
    Senator Portman. Thank you, Madam Chair.
    Secretary Zinke, thanks for joining us again today. It is 
good to see you.
    We have talked about our shared passion for the national 
parks on a number of occasions, including Cuyahoga Valley 
National Park, the number 11th visited park in the country, and 
also, Ohio is home to other great national park sites, 
including the Dayton Heritage National Historical Park where 
the Wright Brothers' great work is preserved.
    Like you, I am very concerned about the $12 billion 
maintenance backlog at our parks and that is why I am pleased 
that, with the help of Chairman Murkowski and Ranking Member 
Maria Cantwell, we were able to pass the National Park Service 
Centennial Act.
    Now this was at the end of 2016, as you may recall. That 
has worked in the sense that it provides funding that is then 
matched and we think that about $65 million from the Federal 
Government that has gone into this challenge project has 
resulted in about $500 million in non-federal funds. A lot of 
it comes, of course, from the National Park Foundation and they 
have raised $460 million since 2016.
    So that is helping. And again, I thank Chairman Murkowski 
for ensuring that the Centennial Challenge part of this, which 
is the part that can leverage so much private sector funding, 
was included in the FY'17 Omnibus bill, $20 million in '17, $15 
million in '16.
    My question for you is, how can we ensure we have a stable 
level of funding for that Centennial Challenge?
    As you know, in the legislation which codified something 
that Congress had already done by appropriations, we also 
included a funding source and that was to be sure that the 
Senior Pass was reformed so that we would receive some funding 
on an annual basis to be deposited into the Centennial 
Challenge.
    My question for you is, how much has the Centennial 
Challenge Fund received, if you can tell us today, as a result 
of the Senior Pass, and how much do you expect to be deposited 
into the Centennial Challenge Fund in '18 and '19, FY'18 and 
'19, as a result of the Senior Pass increase?
    Secretary Zinke. Well, thank you for your question and in 
the budget is $15 million for the Centennial Park Challenge 
Fund. I have talked to the National Park Foundation. They've 
done a wonderful job. Their target actually of raising private 
funds is just under $1 billion this year, and I believe they'll 
make it. We have a good board.
    As you know, when you're addressing an $11.7 billion 
backlog, even though the Centennial was a great program, it did 
not meet the requirement of our funding of our parks. The last 
great effort was really Mission 66, back from '56 to '66, which 
was a great effort and much of our buildings today are a 
reflection of that program.
    Senator Portman. Yes.
    Mr. Secretary, let me just interrupt you for a second. As I 
look at the FY'19 budget from you all, I do not see any funding 
for the Centennial Challenge, with the exception of the Senior 
Pass. Again, we fought hard to get this funding into the 
appropriations bills and the CRs and now under the Omnibus and 
again, Chair Murkowski, who is here, has been a leader on that.
    Secretary Zinke. I have $15 million in it.
    Senator Portman. In what? In the FY'19 budget?
    Secretary Zinke. In mandatory funding at $15 million in 
2019.
    Senator Portman. Is that from the Senior Pass? Can you----
    Secretary Zinke. That's from the--I'll figure out whether 
it's from the Senior Pass, but it's offsetting collections, 
which I believe it is.
    Senator Portman. The Senior Pass? Okay.
    Secretary Zinke. Yeah.
    Senator Portman. That's my----
    Secretary Zinke. I'll check that, but it should be.
    Senator Portman. Yes. That would be a historical level and 
if that happens, great, but I guess what I am asking you is 
whether you would be willing to work with us on ensuring we 
have the appropriations to be able to continue this important 
part of the overall effort to deal with the maintenance 
backlog. I agree with you, it is not enough, but it is 
absolutely critical that we have it.
    A broader question is, how do you get at this $12 billion 
in a more significant way?
    As you know, I have introduced legislation I've worked on 
the last couple years with Senator Warner. It is called the 
National Park Legacy Act. It provides funds from oil and gas 
revenues for maintenance backlog projects.
    My question to you there is, can you commit to working with 
us on the Legacy Act to be sure that we can take these oil and 
gas revenues and provide a funding source to deal with the 
deferred maintenance backlog?
    Secretary Zinke. I certainly can.
    And to be clear, the proposal that's in the budget is 
capped at $18 billion. The proposal that I do support is taking 
and addressing, how do you get to $18 billion and have the 
revenue?
    And I think it's a fair proposition that if you look at 
energy across the board, whether it's wind, solar, mining, any 
energy, then I think if you're going to gain a resource and 
wealth from public lands then a fair proposition is you should 
also contribute to the maintenance backlog and preservation of 
those lands. So that's where the $18 billion comes from. We 
think that we can get there in eight years given the scale of 
what's occurred, especially if Alaska comes online. So----
    Senator Portman. We would love to work with you on that, 
and I hope you will work with us.
    Your proposal, as we look at it, does not have guaranteed 
funding because you are assuming that the Treasury has an 
estimate of what is going to come in and anything over that 
estimate would be provided for maintenance backlog.
    Our legislation is a little different. It provides for that 
funding as a secure source. In other words, it is guaranteed. I 
know you worked with other Senators, apparently, on another 
proposal, but you know, we have been at this a while. We think 
we have a good proposal. It is bipartisan. I hope you would be 
willing to work with us on this proposal as well.
    Secretary Zinke. Absolutely. You have my commitment I'll 
work with you because I think we both share the same issue, is 
that we have to address long-term, so 10 years from now we 
don't look back and we're still behind. So I think it's a long-
term solution. I do think we're similar on energy. I'm more 
inclusive. I include wind and everything that is on federal 
land, but I would love to work with you on it.
    Senator Portman. Thank you.
    I have another few questions for the record for you, Mr. 
Secretary. Thanks for being here today.
    The Chairman. Thank you.
    Senator Smith.
    Senator Smith. Thank you, Madam Chair.
    Secretary Zinke, it is nice to meet you.
    I would like to ask you about the Lewis and Clark Regional 
Water System which, as I am sure you know, is a critically 
needed water project that serves South Dakota, Iowa, and 
Minnesota.
    Our states have been awaiting federal funding from the 
Bureau of Reclamation to complete this project, which was 
authorized about 18 years ago. When it is finally finished, it 
is going to be a vital source of drinking water and also a very 
important economic development driver in our three states and 
the southern part of Minnesota, where there is actually a real 
shortage of water. The federal funding for this has been 
delayed and, of course, as you know how this goes, that 
ultimately means that it ends up costing more. The estimate is 
that, at current funding levels, we would complete this project 
by 2048 costing the taxpayers an additional $55 million. In the 
meantime, the states, including my state, have been filling 
this gap so that the project can continue.
    My question is this: in the President's budget there is 
$100,000 for this project, which is clearly not a serious 
number. Would you agree with that?
    Secretary Zinke. Overall, the budget includes about $34 
million and the President's infrastructure has a significant, I 
think 25 percent, is in rural.
    But you're right, is at the end of the day, the budget is 
difficult on the Bureau of Reclamation. We think there's some 
flexibility in infrastructure, particularly when it looks at 
Bureau of Reclamation holdings.
    You know, I'm from Montana, and there's a saying that's as 
true is that, ``Whiskey is for drinking. Water is for 
fighting.'' And Montana, too, on the east side, has a number of 
these legacy projects from Bureau of Reclamation that need 
federal assistance. The grand bargain, though, when Bureau of 
Reclamation was put in place, was the Federal Government would 
come in and invest and then over time the land users, the water 
users, would pay for it and that title would be transferred.
    And so, we have an enormous amount of holdings that we have 
not transferred title, even though the water districts have now 
paid for the projects, but we still are responsible for 
maintaining them. And I think in the budget also, we asked for 
some authority, if those projects now are in a good place to 
transfer so we can be relieved of the maintenance 
responsibilities, that will allow us additional funding to do 
what the Bureau of Reclamation was intended to do.
    Senator Smith. I appreciate you agreeing with that, and I 
would just ask for your commitment to continue to work on this. 
I think it is extremely important to all three of our states. 
Coming from, originally from New Mexico, I understand the vital 
importance of water. So thanks for that. It sounds like you are 
willing to work with us on that.
    Secretary Zinke. I'm committed to work. I think rural water 
is so important for a number of reasons, but I've always--and 
I've had the best guys, as far as Brenda and Alan Mickelson, in 
the Bureau of Reclamation team. And they're from rural places 
and they're committed. And I'm committed to work with you on 
this project.
    Senator Smith. Thank you. Thank you very much.
    I was going to touch on the Land and Water Conservation 
Fund, but I think that Senator Wyden has covered that for us.
    So in just the few minutes that I have left, I would like 
to highlight something which I think is important to Minnesota 
that is in the budget, which is the important PILT program.
    Of course, in Northern Minnesota, where we have lots of 
forest land and lots of federal land, that means that our huge 
northern counties suffer because of a lack of property tax 
base. And so, I hear about this from our county commissioners 
all the time and just really appreciate how important the 
Payment In Lieu of Taxes program is for, not only Minnesota, 
but many Western states as well. I just wanted to see if you 
had any more comment on that important strategy.
    Secretary Zinke. We appropriated $600 or--$465 million 
which was the same level.
    And again, I'm from Montana, you know, a timber town at one 
time, but it would be nice if the Federal Government would be 
better partners so our federal lands could be used in a 
responsible manner. But Minnesota, you know, one time we had a 
lot smaller timber mills out there where people could gain some 
land and some wealth off the land. It's challenged when the 
Federal Government is the biggest land holder and there's no 
economic, you know, viable business there.
    So with PILT, we understand and we raised it to the '17 
level. We heard, clearly, from the West last time on PILT, so 
we remain committed to it.
    Senator Smith. Thank you very much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Smith.
    Senator Cassidy.
    Senator Cassidy. Mr. Secretary, congratulations on your 
leadership. The Chair of the Committee mentioned at the outset 
over the last year morale has improved, diversity has improved. 
Not bad for a Navy Seal Commander, man. Good for you. Let me 
thank you for being here.
    Hey, thanks for visiting South Louisiana. Our coastline is 
vanishing. We have had a hard time getting permits to repair 
our delta. By the time we get the permit, the delta is gone. So 
thank you for your commitment to make that work, and thank you 
for the decision under the proposed budget to retain GOMESA 
payments to the Gulf states. We need that money to rebuild our 
coastline. For us, it is existential.
    Let me just get a couple things straight. They are giving 
you heck for taking a private plane from the North Slope to 
where, Madam Chair?
    Secretary Zinke. Anchorage.
    The Chairman. Well, we went to Fairbanks.
    Senator Cassidy. If you had driven that, is it one, 
possible, and how many miles is it from one to the other?
    The Chairman. Well, from where we began, it was not 
possible to fly. We were up in the fields.
    Senator Cassidy. So did you drive?
    The Chairman. Excuse me, it was not possible to drive, so 
we had to fly. There is a haul road for the pipeline.
    Senator Cassidy. But how many miles is that?
    The Chairman. To Fairbanks? It is 400, 350 miles.
    Senator Cassidy. But there is no road? And they are giving 
you heck for that?
    Well, Mr. Secretary, you should take that heck because if 
you have to see the North Slope and there is no road to get 
back to where you need to be, you have to get there somehow.
    Secretary Zinke. Senator, I've been shot at before. I'm 
very comfortable with it.
    Senator Cassidy. Yes.
    Secretary Zinke. Do right, fear no man, do the best you 
can. Everything I do is scrutinized, and I'm willing to take 
attacks on myself. I don't like attacks on my family, my kids, 
which I get raked all the time. But we're pretty tough. We're a 
military family. We're pretty tough about it. Do right. Fear no 
man. Wake up and make sure we're accountable. Everything I do 
is looked at through the whole legal team, Office of Ethics. It 
is what it is.
    Senator Cassidy. Well, let me congratulate you for being so 
gracious regarding your predecessor, Secretary Jewell, who, I 
guess you point out that she took trips totaling $1 million in 
cost. Again, that was very gracious of you. I think you 
recognize your presence would be very important to somebody in 
Las Vegas if they are going over an Interior issue.
    One more thing. We in Louisiana have recognized that you 
cannot be pro-environmental unless you are pro-business and you 
cannot be pro-business unless you are pro-environmental because 
the one sustains the other.
    Now I see that the Interior Department has spoken of 
decreasing the royalty rate for offshore oil and gas for leases 
sold later this year from 18.75 to 12.5. I get that. There has 
been a real difficulty in jump-starting development out there. 
Without the development there won't be money for GOMESA. There 
won't be money for the Land and Water Conservation Fund. So 
there is a national interest in that. But let me say, my 
questions relate to this. How does Interior's analysis project 
GOMESA revenues would be impacted if the recommendation is 
accepted?
    Secretary Zinke. Well, certainly, the Advisory Board is 
just that, an Advisory Board, and they made several 
recommendations, as you point out. One of the recommendations 
was to remove or lower the royalty rates.
    On the Gulf, we are due to put up for lease the largest 
acreage in the history of this country in the Central and 
Western Gulf. It will be interesting to see what the level of 
interest--we think the interest is good on that.
    Senator Cassidy. Now is the interest sparked by the lower 
end of the royalty?
    Secretary Zinke. The data is--I would say you could go 
either way in the data. Lowering the rate, the supply and 
demand, lowering the rate one could say, well, it increases the 
production. What we're seeing though is more production onshore 
than offshore. We saw companies like Exxon, $50 billion in the 
Permian-Wolfcamp onshore. Still, offshore is more risky and 
it's more expensive.
    The Gulf has an advantage that you have subsea 
infrastructure. So the Gulf has advantages as opposed to both 
the East and the West Coast. I think this lease sale will be a 
bellwether on offshore, probably in the next 10 years.
    Senator Cassidy. So in the one sense you could have 
increased revenue if you have more production to offset the 
lower royalty rates. Any modeling of that or, somehow--
obviously, we in Louisiana are concerned because GOMESA funding 
to rebuild our coastline is linked to that and those who get 
money for the Land and Water Conservation Fund are likewise 
concerned. So any modeling on that?
    Secretary Zinke. We do have modeling. We'll share with you 
what we have. Again, it's a supply and demand model. You'll 
lower the royalties, you make it more attractive, production 
increases and revenue, in some cases, can increase.
    So what you want to do is make sure your royalties are 
fair, appropriate, don't penalize production, incentivize 
overall energy dominance, but make sure that you also 
incentivize reliable, incorporate innovation into a regulatory 
scheme.
    What I'm hearing from the industry is regulation that 
incorporates innovation, best science, and best practices. It's 
not punitive, it is as much of an economic driver as royalty 
rates.
    Senator Cassidy. Got it.
    I yield back. Thank you.
    The Chairman. Thank you, Senator Cassidy.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Secretary Zinke, it is good to see you again.
    I want to start with renewable energy. I know we have had 
this conversation. In the State of Nevada, 87 percent of the 
land is owned by the Federal Government, so our partnership is 
key. The interaction that we have with all of the federal 
agencies is important to the State of Nevada.
    One of the areas that we have been focused on is renewables 
and responsible development of wind, solar, and geothermal 
energy on public lands. It has long had broad bipartisan 
support, including from you during your time in Congress as a 
co-sponsor of the Public Land Renewable Energy Development Act, 
and it has played a growing role in our economy. Solar now 
supports more jobs than natural gas and over twice the jobs in 
coal, according to a 2017 Department of Energy report. Yet, for 
the second year in a row, the Administration's proposed budget 
looks at cutting DOI renewable programs by almost half, a 
proposed 50 percent cut for Fiscal Year '18 and a 40 percent 
cut for Fiscal Year '19.
    Looking at these numbers, it appears that renewable energy 
development is not an important part of the Department's 
charge. If this Administration is committed to what I have 
heard you say time and again, an all-of-the-above energy 
strategy, then why is renewable energy the only energy program 
that is proposed to be cut?
    Secretary Zinke. Thank you for the question, and that is a 
great question.
    We looked at the expected demand and expected demand by all 
our modeling was about $73 million and that's what we funded it 
at. It's down from 20.
    With solar, there's some projects out West, particularly in 
California, that are proposing 338,000 acres of a solar field 
on federal land--that's 500 square miles.
    So every energy, as you know, every energy source has its 
consequences. Wind chops up birds. I was criticized for saying 
750,000. I have the study that says about, let's see, 800,000, 
over 800,000 bats and 573,000 birds. That's a study from the 
USGS. So wind chops up a lot of birds.
    Solar, when you put a solar field in, it's single use. 
You're not going to hunt on it, you're not going to recreate on 
it, and it's tough for habitat.
    But our policy is all-the-above. There are appropriate 
places for wind, there's an appropriate place for solar, we 
just have to make sure that we understand the consequences and 
have a national dialogue. It is better to produce energy in 
this country under reasonable regulation than watch it get 
produced overseas with none.
    Energy is core to our economic well-being and, quite 
frankly, morally, to produce energy in this country is morally 
right because I don't want to see your kids ever have to go 
overseas and see what I've seen.
    Senator Cortez Masto. So can I just clarify my 
understanding? Your concern is the environmental impacts that 
solar and wind have and that is why you have taken a look at 
cutting this budget for these areas? That is what I have 
heard----
    Secretary Zinke. No, it meets the--our budget reflects the 
expected demand. There was great demand in solar early. Solar 
demand----
    Senator Cortez Masto. Did I not just hear you say in 
offshore oil drilling there is low demand, yet you are 
increasing the budget in those areas? I am just confused with 
the whole, overall energy policy.
    Secretary Zinke. No, what I'm saying, what I said in 
offshore is--no, what I said was, in offshore, we'll see. The 
lease is about in March. I think it's going to be a bellwether 
of interest offshore vice onshore. There's no question that 
offshore oil and gas is riskier than onshore. Secondly is the 
shale plays onshore significantly.
    Senator Cortez Masto. Riskier in what sense? Environmental 
impact or the fact that nobody will come out because it doesn't 
pencil out and is cost prohibitive?
    Secretary Zinke. It's riskier for a number of reasons. One 
is environmentally.
    When BP--it's well over $20 or $30 billion BP has paid.
    Senator Cortez Masto. But yet the budget has increased for 
that. Let me move on because we will submit these for the 
record.
    The reorganization--you and I have talked about this, and I 
so appreciate this is a tough thing to do. I have talked to you 
about the fact that the Duck Valley Indian Tribal Reservation 
is both on Idaho and Nevada state land. The line straddles 
that, right? And so, BLM in Idaho treats them differently than 
the BLM in Nevada. Yet, what I am looking at now on your map is 
cutting Nevada in half for your BLM regions. I don't quite 
understand that.
    What I am asking for is a commitment from you and DOI to 
work with the stakeholders, the Governor, and the State of 
Nevada to address our concerns. Will you be committed to doing 
just that?
    Secretary Zinke. I am. I have talked to the Governor, and 
now I understand he is in support of our plan.
    If--you have a map in front of you. Nevada is already 
divided in multiple regions. We're going to, our plan as of 
right now is keeping the BLM directors because almost all the 
states that have BLM enjoy the relationship with having a BLM 
director, a state director.
    But our larger issue is trying to bring BOR, BIA, Park 
Service, the different bureaus within Interior and realigning 
to make sure we're on unified districts, unified regions based 
on watershed and science. And you can see them. The map on the 
right is our current organization.
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Secretary Zinke. And you look at Nevada, Nevada is carved 
up, probably seven or eight different lines.
    And the map on the left is how our proposal----
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Secretary Zinke. What we've done is we looked at science, 
watersheds, wildlife corridors, about 13 variables, equal 
systems, then we brought our SESs in, and these are career 
professionals.
    Senator Cortez Masto. Career professionals.
    My time is running out and I don't want to get into anybody 
else's.
    The Chairman. Your time is up.
    Senator Cortez Masto. Yes.
    Can I just ask for a commitment that you come back to us 
and go through this and be willing to talk to us more about 
what is going on here, because we have not had the opportunity 
to explore this with you and your staff as well?
    Secretary Zinke. Absolutely.
    Senator Cortez Masto. Thank you.
    Secretary Zinke. Congress has a critical role in this, and 
that's why it says ``DRAFT.'' So we're introducing it to you. 
We'll go through--I've just, kind of, outlined the steps we've 
taken thus far.
    We are to the draft of where we are but both the House and 
the Senate have an enormous amount of say in this and we think 
we need to reorganize and unify districts. We're willing to 
work with it and mortar board it out. If there's some 
adjustment that needs to be made, great.
    Senator Cortez Masto. Thank you.
    The Chairman. Thank you, Senator.
    I think these are issues on this reorganization that we 
will all be learning more about, but the opportunity to have 
the one-on-ones I do think is important.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair.
    Thank you, Secretary Zinke, for your time and service 
today. Thanks to your investment in our public lands. Thanks 
for your support of the National Park Restoration Act, I truly 
appreciate it. That is going to make a huge difference as we 
get and deal with this backlog of maintenance in our National 
Park System.
    Enos Mills, who was the idea behind Rocky Mountain National 
Park that you visited--I am grateful for your visit this last 
year--said, ``Within National Parks is room--glorious room--
room in which to find ourselves, in which to think and hope, to 
dream and plan, to rest and resolve.'' I thank you for the 
resolve that you are showing to address the backlog and other 
issues facing our public lands.
    Secretary Zinke, I want to talk a little bit about the 
Arkansas Valley Conduit, more of a comment than anything.
    The Arkansas Valley Conduit Project is in Southeastern 
Colorado. Authorized in the 1960s, President Kennedy signed the 
Arkansas Valley Conduit into law. Since then, we have had a 
number of people providing resources, dollars, to this pipeline 
from Pueblo, Colorado, out toward Lamar, Colorado. Hundreds 
plus miles of pipeline providing clean, abundant, affordable 
water to some of the most economically distressed areas of our 
state. The Colorado Water Conservation Board has committed $60 
million to this project. I know you are very well aware of 
this, in rural Southeastern Colorado 50,000 people depend on 
it, would be dependent on it, for their drinking water.
    We have had previous conversations with Administration 
officials and--this Administration as well as previous 
Administrations--the Southeastern Water Conservancy District 
and State of Colorado have joined together in working on this. 
I just would thank you for your commitment to working with us 
as we work through the needs of the Arkansas Valley Conduit and 
just to thank you for that commitment, Secretary Zinke, to work 
with us on that.
    Also, thank you as well on the BLM reorganization, 
headquarters relocation. The Federal Government owns roughly 47 
percent of the land out West. The Bureau of Land Management is 
responsible for administering 245 million acres of federal 
service lands and all but 100,000 acres of those, of that 
number, are located mostly in the 11 Western states, 11 
Westernmost states, and Alaska.
    At the beginning of this Congress I introduced the BLM 
Headquarters Relocation Act, the sole purpose of which is to 
relocate the headquarters of the agency so that the people who 
work there are among the lands they manage. We already have a 
number of field officials, field personnel, out in the states 
where the 245 million acres reside but we can get those 
headquarter agents, headquarter employees there, as well, 
because I believe decisions are better made when they are made 
by those communities, within those communities, that are most 
affected by their decisions.
    I am certainly pleased to see within the budget request 
Interior's planning at modernization of the organization for 
the next 100 years and at the top of the list, I think it 
should be relocating the BLM headquarters out West. And I would 
like to plug, personally, Grand Junction, Colorado. Some others 
may have different ideas, but I think it is a uniquely 
qualified location to host it.
    I just wanted a brief update, if you could, on the agency's 
reorganization, relocation process.
    Secretary Zinke. Well, thank you.
    You'll be happy to know that Anvil Points, which has been 
languishing for decades, has been resolved. The check is in the 
mail.
    Senator Gardner. That is damn big news, Mr. Secretary.
    Secretary Zinke. Yeah, it is. It is big.
    Reorganization----
    Senator Gardner. Wait, if you don't mind, let me just speak 
on that for a little bit. That is a big deal.
    Secretary Zinke. It is a big deal.
    Senator Gardner. And I want to thank you for that.
    Secretary Zinke. Swain County in North Carolina and for 
those--there were commitments made that money was in the 
account but never distributed, and you had Swain County in 
North Carolina, you had Anvil Points, and the money was being 
held but never released for some issue.
    So we have looked at it; we resolved it. So the payment, my 
understanding, has been made or is in the process of being 
made. The government check is in the mail.
    Senator Gardner. Secretary Zinke, just for the information 
of the Committee, this is something that has been a broken 
record. Scott Tipton, myself, others in the Colorado delegation 
have been talking to you and to previous Administrations about 
this. Secretary Salazar, Senator Udall and gosh, Senator 
Salazar, everybody has been involved in this. This is $18 
million to the people of Western Colorado. Thank you. Thank 
you. Thank you for that.
    Secretary Zinke. My expert has said the payment is going to 
be made March 28th, so the end of the month. So the check is 
really not in the mail, but it's coming.
    Senator Gardner. Mr. Secretary, thank you for that.
    Secretary Zinke. Oh----
    Senator Gardner. I am just going to yield back my time, and 
call the county commissioners out there who are going to be 
doing some handstands right now.
    Secretary Zinke. Well, on the reorganization, real quickly. 
Sixteen percent of Interior is retirement age today. In five 
years, 40 percent of Interior is at retirement age. And so, 
looking at a replacement as people retire, looking at pushing 
more assets out West, it makes a difference if you're a GS5, a 
GS7, where you live. San Francisco, Seattle, Washington, DC, 
are very expensive cities and, quite frankly, the quality of 
life if you're a GS7, GS5, entry level, it's difficult for a 
number of reasons.
    We are looking at smaller communities out West because 
remember the organization there's three areas that we're 
focused on: recreation, permitting, and NEPA. And we think 
we're going to do those jointly and all those don't have to be 
co-located, but the recreation has to be co-located, the NEPA 
has to be co-located, and the permitting has to be co-located.
    We have 2,600 sites in Interior. But we are looking at 
smaller communities, particularly in areas like BLM, and in 
these different regions where Interior folks, entry level, can 
enjoy a quality of life, have a chance to buy a house, have a 
chance to, you know, have good schools or good hospitals.
    We haven't determined where. We think we'll probably have 
three candidates within the different regions for that and then 
work with Congress, get a metric applied to it so we do it by 
best practices and science. But certainly the smaller towns 
across the West, and there are many in everyone's district, is 
kind of where we're centered on at the moment.
    Senator Gardner. Thank you.
    The Chairman. Thank you, Senator Gardner. Congratulations 
on your good news.
    Senator King.
    Senator King. Thank you, Madam Chair.
    A couple of quick questions on this royalty issue. Has the 
decision been made, or is this a proposal to go down by 35 
percent in the royalties in offshore?
    Secretary Zinke. No, the decision has not been made. The--
--
    Senator King. And are there data to support this change? Is 
there an economic analysis that shows the current rate is 
impairing the ability to lease these properties?
    Secretary Zinke. There is data. There are recommendations.
    Senator King. From whom?
    Secretary Zinke. Yeah, but to be clear, where are we in our 
energy?
    The President signed an EO, an Executive Order, tasking me 
to look at energy and to prepare this.
    Senator King. I am sorry, Mr. Secretary, I have very 
limited time. Are there data to support a 35 percent reduction 
in the offshore drill that indicates that this is somehow an 
impediment to the execution of leases? Yes or no?
    Secretary Zinke. I would say there's an argument.
    Senator King. Argument is not data. In other words, there 
has been no economic analysis to justify this massive cut? 
These are resources that belong to the people of the United 
States. We are taking money out of the pockets of taxpayers.
    Secretary Zinke. Well, I agree with you.
    And so, I haven't made the decision because I have not 
looked at it in detail. There's an argument. There's an 
argument on the other side, too. And the data is not 
conclusive, although I have not looked at it in detail. I've 
just looked at the broad brush----
    Senator King. Has any analysis been made of what the cost 
to the taxpayers would be from this reduction?
    Secretary Zinke. There is no doubt that there--when they 
present the recommendations to me, the supporting data will be 
there.
    Senator King. They, being the Royalty Policy Committee?
    Secretary Zinke. Yeah, the Royalty Committee, which is an 
advisory board.
    Senator King. Could you supply for the Committee the names 
and affiliations of the members of that Committee, please?
    Secretary Zinke. Sure.
    Senator King. Thank you.
    Secretary Zinke. But I can tell you that I think the 
industry, the energy industry, oil and gas, is doing very well.
    Senator King. I would----
    Secretary Zinke. So at current rates they're doing very 
well.
    Senator King. Well, you just made my argument.
    Secretary Zinke. Well, and I'll share it, but I have not 
made a decision, but when you're producing as a country 10.6 
million barrels a day, first time in 60 years we're exporting 
liquid natural gas, the oil and gas industry is doing very 
well.
    Senator King. Fine. I appreciate that, and I hope you will 
apply that analysis to this rather significant change.
    Second question, you made a proposal, or the Department has 
made a proposal, on offshore drilling. I hope you will take 
into consideration the interests of the states involved. In 
Maine, during a Northeaster last week, a Nor'easter, we had a 
turnout at a public meeting. I asked my office, I said, I bet 
it was 95 percent opposed. They said, no, you are wrong, 
Senator. It was 100 percent opposed. Our legislature has 
opposed it unanimously. Our delegation is unanimously in 
opposition to it, and the coastal economy of Maine is 
enormously dependent upon fisheries, lobsters, and visitors 
throughout the year. I hope that will be taken into 
consideration, because the benefit we see is minimal and the 
cost, the potential cost, is enormous.
    Secretary Zinke. This is what I did.
    The last Administration took about 94 percent off. What I 
did is zero-based. So I put everything on for discussion.
    Senator King. And I know----
    Secretary Zinke. Knowing----
    Senator King. You took Florida off, and I am just 
suggesting I hope you will do the same for Maine----
    Secretary Zinke. Well, by putting everything on we had a 
discussion.
    Now Florida is different for three reasons. One is that 
every member, both sides of the aisle, wrote me an immediate 
letter and said we don't want it.
    Senator King. That is true of Maine as well, by the way, 
Mr. Secretary.
    Secretary Zinke. Second is your governor, the Governor of 
Maine, is for it. And third, Florida has a federal moratorium 
in place until 2022 which no other state has, a federal 
moratorium. So had I left Florida off in the beginning, it 
would have been arbitrary and capricious.
    Senator King. Well, I am not----
    Secretary Zinke. So I put Florida on, but Florida is still 
in the process.
    Senator King. I am not arguing that you made the wrong 
decision in Florida. I am just arguing for a similar decision 
in Maine based upon our circumstances.
    Next, a different area. Park fees, a significant increase.
    I agree with you that we need to look at park fees. I think 
they should be looked at, and it should be part of the 
analysis. My problem is the park fee proposal. The increases 
are so significant, and I wondered if there has been an 
economic elasticity analysis to determine whether we could end 
up losing more money than we gain by increasing, for example, 
for a person from $12 to $30, and a vehicle from $25 to $70? 
Those are really significant increases, and there could be two 
results: a reduction in visitation, and also a closing off of 
the parks to the people of America who we want to have access.
    Secretary Zinke. I agree. We have several proposals, and we 
have not made a decision yet because of the data.
    But you're right. One of the proposals on the table was, 
you look at the peak season on our top 10 parks and that's 
where the significant increase is.
    Still, the greatest bargain is $80 for a year pass. That's 
the greatest bargain in America.
    Senator King. No, the greatest bargain used to be the 
Senior Pass which I have which was $10 for life.
    Secretary Zinke. For life.
    Yes, and now it's $80 for life.
    Senator King. That is the greatest bargain.
    Secretary Zinke. But part of the value of entrance fees is 
what we want to do is push more flexibility to the park itself, 
the Superintendent. So, we're very aware. We haven't made a 
decision yet. Clearly, it's on both sides of the issue. We want 
to make sure that the parks remain a value and accessible for 
America. That's the promise this country made, and that's the 
promise that we'll keep. We have not made a decision. I am 
aware that an increase hurts some families and the intention is 
not to hurt families.
    Senator King. It is the magnitude of the increase.
    Of course, motorcycles went from $20 to $50. Now for me, 
I'm just kidding, but when you see a motorcycle change, that 
gets my attention.
    I think your answer to summarize on all of these issues 
that we have been talking about today is, data will be 
collected, data will be made available, final decisions have 
not been made, and you will listen to the views of the people 
of the states involved. Is that correct, Mr. Secretary?
    Secretary Zinke. As well as I'll listen to this Committee 
on it.
    So you know, about half our parks don't charge. So there's 
also, we're inconsistent across-the-board on what we charge. A 
lot of our parks either don't charge or there is a tier system 
that they're not adhering to. That's part of the issue.
    And then what represents the best value and how do we do 
it? Some of our parks, when you have Yosemite which is the 
experience--the visitor experience is a parking lot, it is so 
crowded--Yosemite, Yellowstone, some of our principal parks, 
we'll love them to death.
    So also we look at how do we manage people, traffic? Do we 
go to a transporter, a public transportation system? Because it 
is untenable, unsupportable, unsustainable, the way we're 
doing, we're managing our parks, let alone the backlog. So all 
these require discussion.
    The Chairman. We are going to move on.
    Senator King. I just hope it will be done over time, 
systematically and data-driven.
    Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Lee.
    Senator Lee. Thank you, Madam Chair.
    Thank you, Mr. Secretary, for being here.
    I want to thank you, in particular, for your leadership and 
for the President's leadership in addressing the concerns 
expressed by people in Utah, particularly in Southern and 
Southeastern Utah, issues related to the designation of the 
Grand Staircase Escalante National Monument and the Bears Ears 
National Monument. I note that some criticism has come your way 
and the President's way over this, but what you did was 
courageous and it was the right thing to do.
    Let's take, for example, the people of San Juan County, 
Utah. This is Utah's poorest county. It is our poorest county, 
in part, because nearly all of the land is owned by the Federal 
Government. That was the case before the Bears Ears National 
Monument was designated on December 28, 2016, and it remains 
the case since then. It also was the case before President 
Trump made the modifications to it, and it remains the case 
now.
    What changed with the monument designation was that people 
in San Juan County, the people of Utah, particularly those 
closest to the monument, were even further put outside of any 
process that might determine how that land can be used, how 
they can access that land, sometimes for recreational reasons, 
many times for religious purposes, as the land is considered 
sacred by the Native American tribes residing in San Juan 
County, Utah.
    This was a big move that was made and a move that was much 
appreciated by people across the political spectrum in 
communities throughout Utah, especially Southern Utah. I 
appreciate and applaud you for doing that.
    Secretary Zinke, I would like to talk to you a little bit 
about a topic that I know you and I have discussed a little bit 
in the past that deals with BLM law enforcement. As you know, 
BLM law enforcement has earned something of a poor reputation 
throughout much of the West, and this is particularly true in 
rural Utah because of the agency's history, particularly 
through certain personnel, of intimidation, of heavy-handed 
tactics and a flagrant and, in some cases, well-documented 
abuses of authority. One major problem has been BLM's sometimes 
blatant disregard for state and local law enforcement.
    During the last Administration, for instance, BLM allowed 8 
of 12 cooperative agreements with local law enforcement 
agencies to expire. This flies directly in the face of 
statutory guidance from FLPMA that directs BLM to achieve 
``maximum feasible reliance upon local law enforcement 
officials.''
    Logic and the law dictates that this is important and its 
logic certainly dictates that minimal help from local law 
enforcement means maximum strain on the Department's resources 
and that also is going to lead to maximum strain with states 
and with local communities affected by these vast swaths of 
land over which the BLM has charge. This is certainly the case 
in many places in Southern Utah where trust between local 
residents and BLM law enforcement officials has completely 
deteriorated.
    I wanted to ask you about what you are doing as the 
Secretary of the Interior and what you look forward to doing to 
change the culture of BLM law enforcement and to maximize 
reliance on local law enforcement within the West?
    Secretary Zinke. Great question.
    I have great respect for law enforcement. It's difficult, 
especially, sometimes, when you're the only guy out there, 
isolated duty stations, a long ways away from help and there is 
a lot of activity that's not good on federal lands. This covers 
BIA. It covers BLM.
    But I am in support of cooperative agreements because when 
you see a BLM truck, the first thing that I would like the 
public to think about is land management. And when you see a 
BLM light go on behind you, I would like the public to think 
about maybe there's a lost kid out there, have you seen a 
grizzly bear, have you seen that--and not getting a ticket on a 
county road.
    We have fired four, to readdress, and it's about public 
trust. Law enforcement individuals have a higher responsibility 
because they have a badge. Because they have a badge they also 
have to make sure that the power that is given them is 
exercised correctly. Heavy-handedness has led to a breach of 
trust, especially out West, and we are very aware of it. We 
have taken action to restore trust. We think the cooperative 
agreements are good.
    When there is an issue, and there's been several issues 
recently out West, I think your first line of defense or first 
action is probably call the local sheriff. He knows the people. 
He's an elected official. He's not an appointed federal agent 
and there's goodness of having an elected official take the 
action and be the face of enforcement. And that certainly is 
the direction that Interior is headed.
    Senator Lee. Wonderful, I appreciate that.
    My time has expired. I appreciate your insight into this 
and I would add to that just that, that is one of the reasons 
why we have a long, proud tradition of local law enforcement in 
this country for precisely the reasons you described. When we 
allow the law to be enforced by people who are accountable at 
the local level, good things happen. Correspondingly, bad 
things happen when we have people who are accountable only to 
someone 2,000 miles away. I appreciate your leadership in this.
    The Chairman. Thank you, Senator Lee.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Mr. Secretary, you noted several times that providing up to 
$18 billion to address the maintenance backlog in our parks and 
refuges and to support Indian education schools is the largest 
commitment ever made. It is the largest investment in these 
three areas ever made, but it isn't an investment unless the 
money actually materializes.
    What is the Department's estimate of how much funding this 
proposal would generate on an annual basis for deferred 
maintenance for the next eight years? Because you also 
testified that you think we can get there in eight years.
    Secretary Zinke. If you go back--good question.
    If you go back to 2008, Interior was the number two 
generator of revenue in this country behind the IRS. It was a 
banner year, but we made, just in offshore oil and gas, the 
revenue was about $18 billion a year.
    When we first took office, it atrophied down to about $2.6 
billion. Some was market conditions, some was not. Given our 
growth, our projected income, especially if Alaska comes 
online, given that, we'll see what the interest is. We think we 
can do it, within eight years is our best guess of $18 billion. 
We think we can recover the $18 billion in eight years----
    Senator Hirono. This is based on projections of the 
revenues from new energy projects?
    Secretary Zinke. For new energy.
    And what we did is we took a baseline--well, again, 
Congress has to have--the Executive doesn't have the power. 
It's in the budget, but it has to have a companion bill to it. 
What we did is we looked at in the budget of taking a baseline 
of what we had on in 2017, about $2.6.
    New energy is all-the-above, but also includes wind, 
solar----
    Senator Hirono. Do you believe that it is quite certain 
that you will be able to raise at least $2.25 billion every 
year in basically new money for maintenance and that this is 
something that can be relied upon so that the NPS employees 
will know how much funding to expect for deferred maintenance 
purposes?
    Secretary Zinke. I would say it's a better bet than funding 
LWCF or our Park System at the moment because the reason why we 
have $11.7 billion in backlog is that we, as a country, have 
not been able to address a backlog that we all know is there.
    I don't give criticism of the House and the Senate. I was a 
member of, obviously, the House. But our current system doesn't 
provide any assurity either, so we think it's the better bet.
    Senator Hirono. Well, there is a bill that Senator Portman 
mentioned that would guarantee this kind of funding and I think 
that is probably, possibly, a better way to go.
    You mentioned several times that your organization bases 
decisions on, among other things, science. So do you believe 
that science and scientists within your Department should feel 
free and unafraid of political interference to present their 
science, even if it includes the words ``climate change''?
    Secretary Zinke. I believe, I'm a strong believer of 
science. And quite frankly, I was criticized because I, as my 
right as Interior, to look at a USGS document as it pertained 
to Alaska prior to publication. I didn't change a comma, but I 
did want to know this, given the same data why were the energy 
resources so radically different between one study and a study 
that was done just a few years prior? What methodology did they 
use as a geologist, what methodology did they use for making 
sure those resources are recoverable?
    Senator Hirono. So there was a review. You referred to a 
USGS report wherein the report stated that, ``Global climate 
change drives sea level rise, increasing the frequency of 
coastal flooding.'' This was a scientific study that was done 
by USGS, and your Department released the press release on this 
report, but it excluded the reference to global climate change 
driving sea level rise. This is why I asked the question that 
reports that use the terms ``climate change,'' do you edit 
those out? Do you censor that kind of language?
    Secretary Zinke. I don't believe the report itself that 
you're speaking of was edited at all.
    Senator Hirono. No----
    Secretary Zinke. The press release could have been 
interpreted because it is a press release and not the report, 
but any reference and any allegation that one of the reports--
--
    Senator Hirono. Excuse me, I have to correct you, Mr. 
Secretary, because the paper's abstract did have that sentence 
which you excluded from your press release.
    Now, this is not the first time that the issue of whether 
or not this Administration actually believes that climate 
change is science-based has come up. This is why we have some 
concerns about what the policy of your Department is and 
whether your scientists are able to make certain statements 
based on their science that includes the term ``climate 
change.'' If you are sitting here telling me that you do not 
censor or edit out references to climate change, great. Please 
answer, yes or no?
    Secretary Zinke. So are you suggesting that we changed the 
document itself?
    Senator Hirono. I am asking you whether the words ``climate 
change'' are somehow not acceptable in your Department and your 
various releases and your preference would be, within your 
Department, not to refer to climate change?
    Secretary Zinke. I don't have a problem with climate 
change.
    Senator Hirono. Great.
    Secretary Zinke. I've always said three things: the climate 
is changing as it always has; it's changing in ways we don't 
understand; and man has been an influencer on this. I don't 
think those are in dispute at the Department of the Interior.
    Senator Hirono. Good.
    So you would not be sitting here editing out those kinds of 
references in various publications that you----
    Secretary Zinke. There is no incident, no incident at all, 
that I know that we ever changed a comma on a document itself. 
Now, we may have on a press release, this is how we announce 
it, but I don't know of any document we have changed. And I 
challenge you, any member, to find a document that we've 
actually changed on a report and I read them all. I don't 
change a comma on them, but I can tell you as Secretary of the 
Interior, I think I have, I know I have the right, because they 
work for me, to read it prior to and I have questions on it. 
I'm a geologist. Why did they come up with this conclusion? I 
think I have a right to know. And your staff, your staff, would 
do the same thing.
    Senator Hirono. Mr. Secretary, based on everything we know 
about this Administration's views on climate change, it would 
comport with the view that words such as ``climate change'' 
would not be included in press releases from your Department.
    Thank you, Madam Chair.
    The Chairman. Secretary Zinke, I think you were pretty 
clear in terms of your views on climate and the fact that 
within the Department, you are not altering the reports that 
are coming out from the agencies.
    Senator Daines.
    Senator Daines. Secretary Zinke, always an honor to have 
you before this Committee.
    I want to first start by thanking you for working with me 
and others on and off this Committee in introducing the 
National Parks Restoration Act.
    As Chairman of the Subcommittee on National Parks, as a 
fellow Montanan, Secretary Zinke, we did not get to pick where 
we got to grow up, but I am so grateful both of us got to grow 
up in Montana. I also want to tell you, I am very proud that 
you are the first Montanan to ever serve on a President's 
Cabinet in our state's history. I am proud of that.
    We both grew up in the shadows of two of our National Park 
System's crown jewels. Secretary Zinke, you grew up in the 
shadows of Glacier National Park. I grew up close to 
Yellowstone National Park. I know addressing the maintenance 
backlog in our National Parks has been a priority for both of 
us.
    I also want to stress the importance of addressing the 
issues of sexual harassment and workforce environment issues 
that I know you are working on at the Department of the 
Interior. With the recent reports of other federal agencies 
and, more particularly, the U.S. Forest Service, there is a 
strong need to take this head-on across the federal agencies.
    I also want to thank you for being a strong ally in the 
forest management space.
    Secretary Zinke, you have been a strong supporter of my 
legislation to essentially reverse the 9th Circuit Courts 
disastrous Cottonwood decision. This decision was so 
disastrous, the Obama Administration supported us and we have 
had bipartisan support to reverse its decision. As you know, 
this decision imposes unnecessary red tape on federal agencies 
that the Obama Administration said, and I quote that 
Administration, ``has the potential to cripple federal land 
management.'' Secretary Zinke, can you elaborate why the 
Department of the Interior and the Fish and Wildlife Service 
believe the Cottonwood decision will needlessly slow down land 
management?
    Secretary Zinke. Thank you.
    The Cottonwood Decision. What it essentially does is it 
halts land management plans when there's a change in species 
status. That's unworkable at the ground level.
    And we have a lot of challenges out West. And thank you for 
your support of, you know, of making sure that our parks, the 
maintenance and infrastructure and the backlog is addressed 
because no one loves public land more than we do.
    But we have to also look at active management. And when 
decisions are made in the court that prevents our professionals 
from managing the land, from reducing dead and dying timber, 
from removing protections of a species as it recovered. We 
should be applauding when species have recovered and we take 
them off the endangered and threatened list because they've 
recovered. We should applaud that the system has worked and 
then divert those assets to another species that is threatened 
that needs some help.
    But the courts have been tough lately about, what I think, 
they're legislating from the bench a lot of times and it's 
hurting our ability to manage and it has a consequence and 
effect on our ability to be stewards of our great treasures, 
both wildlife and the land itself.
    Senator Daines. Thank you, Secretary Zinke.
    Given that we had the Obama Administration supporting us on 
this Cottonwood fix and now the Trump Administration supporting 
us, I hope we get the fix completed here in this Omnibus 
negotiation.
    Secretary Zinke, I want to turn toward this issue of 
workplace environment. Can you update me on what the Department 
is doing to address sexual harassment and other workplace 
environment issues?
    Secretary Zinke. Well Senator, I fired four. I'll fire 400 
if necessary because I, as a former Navy Seal Commander, I 
think you just should have a work environment that is free of 
harassment, free of intimidation.
    It was amazing to me, the lack of process, the lack of 
commitment, the lack of priority about an issue that is a 
virus, it's a cancer that will bring down any organization. So 
we put processes in place. All my leadership team meets and 
talks about it regularly to make sure we're addressing it. I 
think we've made great progress on it.
    I had an advisory board that resigned and one of the 
members stated that they knew about sexual harassment, but it 
wasn't my job to say anything. I'm not sure what type of 
advisory board that is. If I would have known about it, I would 
have fired them before they resigned because that type of 
attitude, when you see sexual harassment, when you see 
intimidation and turn a cheek and don't say anything, that's 
exactly what's happened across this country, you know, starting 
with the Hollywood group. I'm glad Hollywood has addressed the 
problem. I'm glad this country is addressing the problem 
because it's not right. But ``when you see something, say 
something'' is the policy in the Department of the Interior.
    Senator Daines. Secretary Zinke, thank you for your 
leadership. It does start at the top, and I appreciate your 
leadership in that important area.
    I am out of time. I am going to submit for the record 
additional questions, Chair Murkowski, regarding the 
maintenance backlog, as well as the Blackfeet Water Settlement 
funding.
    Thank you.
    The Chairman. Thank you, Senator Daines.
    Just a few more questions here this morning.
    The issue of the advisory committees you just raised, Mr. 
Secretary, I know that with regard to the various advisory 
boards, various advisory councils out there, you had conducted 
a review of the same.
    I hear from people in the state, they want a process that 
allows for their input. Yesterday a report came out announcing 
that BLM has renewed the charters of 21 BLM Resource Advisory 
Councils which had temporarily been suspended. Can you give us 
just a quick update here on your national review process for 
both these internal and external panels and give us some sense, 
in terms of timeline, as to what folks might be expecting 
getting back to regular meeting schedules?
    Secretary Zinke. When I assumed the position--I have over 
200 advisory boards, 200. And so, here's what I asked. I said, 
tell me who is on your board, tell me what you've done the last 
two years, tell me what your expectations are in the next two 
years, tell me what your mission statement is and your budget.
    The Chairman. Reasonable so far.
    Secretary Zinke. And what I did is I suspended everyone 
until they could provide that little information because I want 
to know, because I think a lot of these boards are meaningful 
and those that did not provide that, were in suspension. We 
contacted everyone. As of, where we are today is that they can 
meet again. But I think it was a reasonable expectation to ask 
people on some of these boards, you know, what do you do? Who 
is on your board? What are your goals?
    To one, to give me, if they need assistance, and a lot of 
these boards are volunteers. We do pay about $10 million a 
year, I guess, in administrative costs, but a lot of the boards 
require an enormous amount of commitment, you know, time.
    One is I wanted to know who is on it and what can I do, as 
the Secretary, to help them. And if they can't answer those 
five questions, maybe we need to review what the leadership is 
on those boards or review whether their boards are important or 
not, if they're not doing anything.
    And as it turns out, I think, we're pretty good of the 
boards we have now and we're issuing our reports and they're 
coming back to us with reports as they meet, what are their 
goals. So I'm pretty comfortable with where we are on our 
boards.
    The Chairman. Good. It certainly seems reasonable to do an 
analysis every while and again to just, as you say, see who is 
there and what folks are doing.
    I mentioned in my opening statement mineral security and my 
appreciation, not only for the Executive Order from President 
Trump, but also your Secretarial Order on mineral security.
    You have $19 million within your budget. I know that we 
need an awful lot more to just map out the country here. But 
given that you are putting this priority within the budget, how 
do you see a process for these funds and what steps are you 
taking within the Department to address some of the mineral 
supply chain issues that we have been raising here?
    Secretary Zinke. Well, thank you for the question.
    As you know, the USGS delivered a critical minerals report.
    The Chairman. Yes.
    Secretary Zinke. America should read it because we are----
    The Chairman. They would find out how vulnerable we are.
    Secretary Zinke. We really are and, as a former SEAL, the 
number of components that a modern warrior has that we rely on 
overseas for a lot of it, is a national security issue.
    And also, the USGS hasn't prioritized and focused on basic 
field mapping in a long time. We think we can get there using 
new and modern technology, UAVs, magnetometers. So the, you 
know, 20 years ago when you set out to field map a lot of 
areas, it was labor intensive, it's going to be a long time.
    Modern technology, modern techniques, particularly UAVs, we 
can catch up quickly, but the USGS has to prioritize this. It 
is in their national interest to do so. And some of the 
techniques, quite frankly, are flying over with magnetometers 
because the best field geologists won't be able to see what's 
below the surface.
    So as a geologist I'm pretty confident that we can catch 
up, and we're going to focus on the areas that we think are the 
best value and the greatest potential. It will be a long time 
remapping the United States.
    What I can tell you when you look at our current mapping in 
North America, Canada has done a pretty good job and when it 
gets to the border, it stops.
    We also have to look at critical minerals and make sure we 
do our part of mapping the Lower 48 and Alaska and there's 
great opportunity there, but again it's innovation, best 
science, best practices, greatest good, longer-term.
    The Chairman. Well, I appreciate that. I think we have 
heard in this Committee that we have actually helped other 
countries do their mapping so that they have a better 
understanding and yet we are still deficient here in this 
country. So I appreciate the prioritization.
    Senator King.
    Senator King. Thank you.
    Secretary, thank you for joining us today, and I wanted to 
follow up on that point. I serve on the Armed Services and 
Intelligence Committees, and I commend you on focusing on the 
critical minerals issue because it is a serious national 
security issue. The first thing we need to know is what we have 
and what we don't have and how to proceed because I just think, 
as I say, this is a long-term national security issue and a 
very important role for your Department. So thank you for 
bringing new focus to that.
    Secondly, I also want to thank you for the work on the 
backlog bill and addressing it in a serious way. As you may 
know, I am a co-sponsor of the bill with Senator Alexander. I 
think it is a creative response. It does not guarantee the 
funding, but it makes it likely and basically, I am for 
anything that will seriously deal with the park backlog. So I 
appreciate that.
    Finally, just a detail question on the leases. I think you 
mentioned that there is a lease offering going out later this 
month or fairly soon. I presume that RFP, if you will, will be 
based upon the existing royalty rate, not the new proposed 
rate. Is that correct?
    Secretary Zinke. Yeah, the lease that we're offering, it's 
the largest lease in the history of this country offshore. It's 
primarily Central and Western Gulf.
    The leasing is a little different than the royalty rate on 
it because when you lease it takes about three years to go into 
production on there. But again, the lease, to me, is a 
bellwether of where the market is going which is incredibly 
important.
    Senator King. Yes, that was what I was going to suggest. So 
at least the people who are bidding are, I would assume, 
assuming current levels, which would be an indication of a data 
point as to whether or not this lease level needs to be 
changed.
    Secretary Zinke. Yes, sir. I'd categorize that, absolutely, 
as you put it.
    They're, I think they're leasing it without anticipation 
one way or the other, whether there will be an adjustment in 
the royalty, as they should.
    Senator King. Yes.
    Secretary Zinke. Their leasing should be on the basis of 
what the royalty rate is today and not a perceived direction 
shift.
    Senator King. Thank you.
    Final point on the park fees. I think, as I mentioned, some 
adjustments are almost certainly necessary, but I would hope 
that perhaps you could step back and do a more comprehensive 
view. Do some economic analysis, maybe slow down and not impose 
them this visitation season and have a more thorough analysis.
    Again, I don't want to end up with fewer people in the 
parks, lower revenues, and limited access for people that we, 
all Americans, should have to our parks.
    Secretary Zinke. You have my commitment that, believe me, 
Interior is not going to do anything unless it's well thought 
out because there's unintended consequences, sometimes, of 
actions.
    Senator King. Exactly.
    Secretary Zinke. And one of the main reasons we're getting 
more visitors is because there's less--people don't travel 
overseas as much. They've, kind of, found your park, a great 
program. And so, we want to make sure that what we do doesn't 
have any unintended consequences.
    The other thing on a broader scale, we also are looking at 
ways to innovate our park fee collection system.
    Senator King. Well, one of the things that I have been 
pressing for three years is an app. There is a pilot with, I 
think, five parks that has worked very effectively at Acadia in 
Maine. A very significant percentage of the fees were done 
online and that is another way to increase fees, collect from 
those who probably are not even paying them.
    Secretary Zinke. We're looking at kiosks and going online 
and doing it, you know, having lane 1, the standard ranger 
because there's a lot of people that enjoy the visitation of 
the ranger, the greeting, the map, but lane 2, 3, 4 maybe a 
fast track to go through for frequent visitors. So we're 
looking at different innovative ways to use technology and 
integrate into that system. We're not there, but we're also not 
there on a decision.
    Senator King. Good.
    Secretary Zinke. So, and no doubt, this Committee has an 
enormous amount of passion in our park fees and should we go 
forward, this Committee will be notified first and in advance. 
So if you have comments we'll take them into consideration.
    Senator King. Thank you.
    Secretary Zinke. But I would say this season is going to be 
a lot like last season except it's going to be, probably, 
greater visitation.
    Senator King. I believe that is right, and that is a 
testament to how wonderful the parks are.
    Thank you, Mr. Secretary. I appreciate it.
    Thank you, Madam.
    The Chairman. Thank you, Senator King.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Sorry I had to step out for other things.
    Secretary Zinke, I wanted to go back to the rural water 
issue. In your budget, there are cuts to the rural water 
programs and projects for communities with a population of less 
than 50,000 people.
    The reason I bring that up is there is so much of my state 
that are in these smaller communities who are being impacted by 
drought and are working very diligently to try to come up with 
ways--I think there are actually three projects in Montana that 
are going to be impacted by this as well.
    It is a 60 percent cut. Why cut at a time when water is 
becoming such a major focus for us on the kinds of resiliency 
programs that are helping our Western states deal with the 
impact?
    Secretary Zinke. I share your concern.
    From a kid who grew up in Montana, especially the Eastern 
side, water is the economic driver. In Eastern Washington 
there's a number of districts that are solely underfunded.
    Part of the re-looking at BOR, is when Bureau of 
Reclamation came in, is that the agreement was federal 
investment would be repaid over a period of time by the water 
users. We have a lot of holdings that have never, the title has 
never been transferred, even though the water districts have 
repaid over time. That is eating our maintenance budget and a 
lot of Bureau of Reclamation projects.
    In the President's infrastructure bill which is, should be 
bipartisan, 25 percent of that bill specifically looks at 
rural, parts of it, in infrastructure and rural, oftentimes, is 
the water.
    But I share your concerns on the water and I'll work with 
you on it, because I understand how important water is, 
especially in Eastern Washington.
    Senator Cantwell. Well, I think the thing that I would say 
deserves a major infrastructure investment is anything that can 
take the existing sources of water and use them more 
resiliently.
    I think that is what you are seeing some communities try to 
do, but when you are the Odessa Aquifer or something that 
small, you need a little bit of help and support in doing so 
in, I would assume, these smaller communities.
    On the oil drilling, will you consider taking the comment 
period and expanding it another 60 days? I think this is 
something we have written to you and asked about.
    Secretary Zinke. On the oil and gas, you should know off 
the coast of Oregon, Washington, most of California, there are 
no known resources of any weight. And again, I put everything 
on so we could have a dialogue and then take what's appropriate 
off.
    I think I'm going to mark down Washington as opposed to oil 
and gas drilling. And I know where every state is, every 
governor, every member of Congress across the board.
    So the comment period has closed. I know where people are 
and I certainly know where the State of Washington is. The 
State of Washington is deeply, passionately opposed to oil and 
gas drilling off their coast.
    And I've committed, and the President is committed, to make 
sure that our plan which will be finished--our first draft, and 
you'll get another bite of it, will probably be late Fall on 
our proposal and our proposal will have the interest of 
Washington reflected in that plan, as well as Florida, the Gulf 
States and where there is enormous opposition.
    Senator King. Maine, Maine.
    Secretary Zinke. We'll do that.
    Maine, also, does not have any resources off the coast. So, 
you can--I'll show you the same maps we have, as far as the 
geology goes, where the areas of interest are and where the 
areas of interest are not.
    Senator Cantwell. So, Mr. Secretary, will that include 
doing no analysis of those opportunities for the future? 
Because one of the things that the communities on the coast are 
worried about, our fishing communities, specifically, is some 
sort of seismic testing that would be done to discover if there 
were new undiscovered sources. The communities are very 
concerned about that.
    Secretary Zinke. Well, a seismic, for many, they've used 
seismic as a predecessor to oil and gas. But seismic also is 
required for wind. Seismic should be required, in many cases 
is, for mining. And the argument is that seismic is 
destructive. A lot of the coast, particularly on the East Coast 
and the Gulf, rely heavily on Reclamation done by offshore 
mining on federal land. I can tell you as a geologist, offshore 
mining of sand is enormously destructive environmentally in 
comparison to seismic. So seismic is not necessarily a 
precursor of oil and gas.
    The other side of it is, I'm pretty confident that we have 
oil and gas reserves onshore to meet our country's needs. I'm 
pretty confident we do. But also, part of my responsibilities 
of Interior is we should know what our reserves are as a 
country. And seismic, using best science, I think, is 
appropriate.
    There are places where seismic is not in the interest of 
taxpayer expenditures, particularly if the geology would 
suggest there is no oil and gas. And so, then you would point 
to seismic if you're going to put a wind field out there given 
that the design of a wind field also affects fishing, so we've 
got to be smarter about how we put our wind apparatuses and our 
fields out there so it doesn't adversely affect.
    Senator Cantwell. I am over my time and I so appreciate the 
Chair allowing me to go.
    I did want to file something for the record. Maybe it is 
something the Secretary and I can dialogue more on, but I do 
believe that when you removed part of Utah's monument that is 
now going to be open to ideas of mining claims and uranium 
development and off-road ATV, you did take an inch of public 
land out of that use.
    So you and I can dialogue on it.
    But again, thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Mr. Secretary, I appreciate the time that you have given to 
the Committee, how you have worked to respond to, not only very 
local interests, whether it is what I raised with our Fortymile 
placer miners or Senator Gardner's news that he received that, 
I think it was Anvil Points, is going to have a good day today, 
but also to the broader picture of reorganization that you are 
proposing within the Department, the impacts there on the 
respective regions, how we ensure that we do right by our 
national parks with a focus on the maintenance and the backlog.
    Because this is the first FY'19 budget hearing that I have 
participated in, and it's going to be a long couple months 
between my role on this Committee and as an appropriator, but 
at every Committee as long as I can remember, when we have 
budget requests that come before us, I have to ask the question 
and I will ask the question of you.
    In terms of what, when you look at your budget for 
Department of the Interior, where do you see this 
Administration's priority and focus on the Arctic and Arctic-
related activity because I am sitting here with my co-chair of 
the Arctic Caucus, Senator King, and we have, I think, worked 
hard and will continue to work hard to raise the interest, the 
awareness and the priority of not only this Administration, but 
Administrations that have preceded you in focusing on the 
Arctic as a place of considerable opportunity, but also 
challenges as we recognize that we have much that is lacking by 
way of infrastructure and how we are able to take full 
opportunity of a changing and of an evolving Arctic.
    That is a long lead up for you, but I put it out there to 
you and everybody else who is going to come before any of the 
Committees that I sit on, that we are going to be continuing to 
ask about the Administration's Arctic priorities to ensure that 
this does continue to be viewed as an area of focus, not only 
from the budget perspective, but in terms of national 
priorities.
    Secretary Zinke. Well, I would think three things. One is 
the Arctic is a national security interest; it is imperative. 
Secondly, energy dominance is not possible unless Alaska's 
resources come to bear. Thirdly is the Alaska Natives. I think 
we need to do better being partners, particularly with our 
wildlife management. I don't, you know, the folks I've met up 
there, whether it's about whaling or seals or walruses, no one 
knows better how to manage those species than our native 
Alaskans.
    And so, I think there's a lot of room of looking at ways we 
can be better partners, co-managing areas, typically, you know, 
they're so much more knowledgeable than we are at doing it.
    So I think the Arctic area, again from national security, 
from oil and gas production, as you know, there's an enormous 
amount of gas on the North Shore and we've talked about 
different approaches on how to recover that gas. And overall, I 
think, liquid natural gas is probably our bridge fuel. Some 
would argue with that. That's my gut feeling on it, but to look 
at how to bring our natural gas resources to bear, certainly 
you have to talk about Alaska on that.
    So, actually I'm very bullish on the Arctic. I don't think 
there's ever been an Interior that has focused more on the 
State of Alaska, certainly in my memory with it. A lot of my 
staff, as you know, we spend a lot of time in Alaska for a 
number of reasons that I've outlined.
    So I think the relationship between Interior and this 
Committee on Alaska will only grow.
    The Chairman. Well, I appreciate that.
    And you mentioned that you feel that this Administration 
has focused more attention on Alaska. We have received a lot of 
attention in previous Administrations, but most of the 
attention has been on how we can, basically, lock up more of 
Alaska, rather than allow the people to work, to not only 
access our resources, but to do so in a balance with a pretty 
special environment, pretty special opportunities that we have 
up there.
    So we appreciate you working with us to allow us to achieve 
that level of independence that any state would want, an 
independence to be able to provide for your people and take 
care of your land. We feel like we do a pretty good job.
    I thank you for your focus on the opportunities that we 
have up there and, in particular, recognizing the great 
benefit, the great value that our indigenous peoples can 
provide whether it is in operations of co-management or just 
consultation, true, true, consultation.
    We have not really had much discussion here today in this 
Committee about your role within Interior with regards to the 
various agencies that have oversight, whether it is through 
BIA, particularly through BIA. We need to get that position 
filled and we are working with you and we are looking forward 
to seeing that Assistant Secretary advance quickly.
    You have a big job in front of you. We have moved several 
of the men and women that you need to help run the Department 
and several of them, unfortunately, have been held through a 
process that is frustrating on all ends.
    My goal is to make sure that you have the team in place 
that you need to do not only execution of this budget that is 
being laid down but really to focus on the public assets, the 
public resources that you are charged with, as well as the 
people, our native people.
    It is a big job. We appreciate the job that you are doing 
and I, particularly, appreciate the positive relationship that 
you have built and the trust that you are working to restore 
with the people of Alaska. It is appreciated, it is noticed, 
and we will welcome you back anytime.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:17 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
